<html>
<title> - HEARING ON THE NOMINATIONS OF ROBERT PERCIASEPE TO BE DEPUTY ADMINISTRATOR OF THE EPA AND CRAIG HOOKS TO BE ASSISTANT ADMINISTRATOR, ADMINISTRATION AND RESOURCES MANAGEMENT, OF THE EPA</title>
<body><pre>[Senate Hearing 111-1200]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1200

     HEARING ON THE NOMINATIONS OF ROBERT PERCIASEPE TO BE DEPUTY 
ADMINISTRATOR OF THE EPA AND CRAIG HOOKS TO BE ASSISTANT ADMINISTRATOR, 
          ADMINISTRATION AND RESOURCES MANAGEMENT, OF THE EPA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE 

95-158 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 8, 2009
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6

                               WITNESSES

Perciasepe, Robert, nominee to be Deputy Administrator, U.S. 
  Environmental Protection Agency................................     7
    Prepared statement...........................................     9
    Response to an additional question from Senator Carper.......    14
    Responses to additional questions from Senator Inhofe........    14
Hooks, Craig E., nominee to be Assistant Administrator, 
  Administration and Resources Management, U.S. Environmental 
  Protection Agency..............................................    16
    Prepared statement...........................................    18
    Response to an additional question from Senator Carper.......    23
    Responses to additional questions from Senator Inhofe........    23

 
     HEARING ON THE NOMINATIONS OF ROBERT PERCIASEPE TO BE DEPUTY 
ADMINISTRATOR OF THE EPA AND CRAIG HOOKS TO BE ASSISTANT ADMINISTRATOR, 
          ADMINISTRATION AND RESOURCES MANAGEMENT, OF THE EPA

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 2:40 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, and Cardin.
    Senator Cardin [presiding]. Chairman Boxer requested that I 
convene the hearing, start the hearing, of the Environment and 
Public Works Committee. She will be joining us shortly.
    I had anticipated being next to Bob Perciasepe to introduce 
him, and I still will do that in my time on opening statement. 
Bob hails from Baltimore, and it is a pleasure to have him 
nominated for this very important position.
    I also welcome Craig Hooks.
    At this time, I am going to yield to the Ranking Republican 
on the Environment and Public Works Committee for his opening 
statement.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I also confided in 
the Chairman that I have worked with Robert Perciasepe over the 
years in many incarnations and have enjoyed that relationship, 
and so I am very supportive of both of these nominees.
    However, I do have an opening statement that I want to put 
in the record that, quite frankly, I regret to say, has 
nothing, well, no, actually, I joyfully say, has nothing to do 
with you.
    [Laughter.]
    Senator Inhofe. From the beginning of the Administration, 
the current Administration, and from the moment that 
Administrator Lisa Jackson became the head of the EPA, we were 
told that there would be an overwhelming transparency in the 
operation of that agency. And we were lectured about the Bush 
administration's alleged failure to follow sound science. We 
were told there would be a new era with no suppression of 
discussion, no matter what the view is or who conveys it.
    Well, last week we saw the reality behind those words. A 
35-year veteran EPA employee questioned the science behind the 
EPA's headlong rush to regulate greenhouse gases. He was told 
to keep quiet about his findings, not once, but four separate 
times. And his work was then buried. This was back in March at 
the very time that we, on this committee, were getting 
straight-faced assurances that there would be, that this would 
not occur.
    Worse yet, this did not happen with some minor 
administrator or administrative matter. It happened with 
perhaps the most important public policy issue that we will be 
dealing with.
    In her first memo to all EPA employees, dated January 23, 
2009, Administrator Jackson emphasized, and I am quoting now, 
she said science must be the backbone of the EPA programs. When 
scientific judgments are suppressed, misrepresented or 
distorted by political agendas, the American can lose faith in 
their Government. That is all in a quote.
    Then she finished by saying, I pledge that I will not 
compromise the integrity of the EPA's experts in order to 
advance a preference for a particular regulatory outcome.
    And in her testimony before this very committee, she 
repeated those pledges.
    Now, we have proof that EPA has rejected science, 
suppressed scientific judgment for the critical agenda, and 
compromised the integrity of EPA's experts for the sake of a 
particular regulatory outcome being pushed by the Obama 
administration.
    That is why last week I demanded an investigation of the 
suppression of the March 9, 2009, direct report on the 
endangerment of finding for greenhouse gas emissions under the 
Clean Air Act. The report warned of several inconsistencies and 
problems with scientific data behind the Administration's 
proposed endangerment finding and called on EPA to conduct a 
serious review of the science before making a determination.
    In other words, it called upon the EPA to do the very 
things that Administrator Jackson had stated should be done.
    There is another matter that I need raise. I have asked 
each of the nominees before the committee to respond with equal 
vigor to the requests for information from either side of the 
aisle. I have been repeatedly assured that this will be the 
case. In fact, back in April, Administrator Jackson herself 
issued a memo to all EPA staff directing them to provide 
Congress with the information we need to do our jobs.
    Yet, in the months since the Administration took office, I 
have made several requests for information that have not been 
received fair and equal treatment. When I do get replies to my 
questions, they have sometimes been vague and unresponsive.
    I know other colleagues on this committee have had the same 
problems, the same experiences. This lack of responsiveness is 
a real impediment to us in fulfilling our constitutional duties 
over oversight.
    Now, to the nominees at hand, I have something that you 
have no control over, and that is that I have observed each 
time we have a new nominee, even though I have supported, I 
think, all of them, they are all from the Northeast. I would 
just hope that you folks would look very carefully, as issues 
come along, and think of the entire country, think of our part 
of the country out in Oklahoma and other areas. I know this was 
nothing intentional, but it turned out to be that way. So that 
is something that I would like to have you folks, well, at 
question time I will probably ask something to that effect.
    This is not a one size fits all type of situation. We are 
dealing with issues that affect different parts of the country 
differently. Certainly, in the current debate that we are 
having on cap-and-trade, the costs are disproportionate. It is 
the Heartland that is paying for the East Coast and the West 
Coast. And these are things that we, I think, should keep in 
mind.
    Having said that, I look forward to serving with both of 
these nominees and for confirming their nominations.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Madam Chairman, I am pleased to join you today to review 
the two latest nominees for senior level positions at the 
Environmental Protection Agency. I congratulate them on their 
nomination and appreciate their commitment to public service.
    Before I get to them, I have something to say about the 
administration they wish to join.
    From the beginning of the Obama administration, and from 
the first moment Administrator Lisa Jackson became head of EPA, 
we were told there would be ``overwhelming transparency'' in 
the operation of that agency. We were lectured about the Bush 
administration's alleged failure to follow ``sound science.'' 
We were told there would be a new era, with no suppression of 
discussion, no matter what the view is or who conveys it.
    Well, last week we saw the reality behind those words. A 
38-year veteran EPA employee questioned the science behind 
EPA's headlong rush to regulate greenhouse gases. He was told 
to keep quiet about his findings, not once, but four separate 
times, and his work was then buried. This was back in March, at 
the very time we on this committee were getting straight-faced 
assurances that this would not occur. Worse yet, this didn't 
happen with some minor administrative matter that doesn't 
really make a difference--it happened with what is perhaps the 
most important public policy issue of our time.
    In her very first memo to all EPA employees, dated January 
23 of this year, Administrator Jackson emphasized, ``Science 
must be the backbone for EPA programs.'' She added, ``When 
scientific judgments are suppressed, misrepresented or 
distorted by political agendas, Americans can lose faith in 
their government.'' Then she added the kicker: ``I pledge that 
I will not compromise the integrity of EPA's experts in order 
to advance a preference for a particular regulatory outcome.''
    And in her testimony before this very committee, she has 
repeated those pledges.
    Now, we have proof that EPA has rejected science, 
suppressed scientific judgment for a political agenda, and 
compromised the integrity of EPA's experts for the sake of a 
particular regulatory outcome being pushed by the Obama 
administration.
    That is why last week I demanded an investigation of the 
suppression of the March 9 draft report on the endangerment 
finding for greenhouse gas emissions under the Clean Air Act. 
The report warned of several inconsistencies and problems with 
the scientific data behind the Administration's proposed 
endangerment finding and called on EPA to conduct a ``serious 
review of the science'' before making a determination. In other 
words, it called on EPA to do the very things Administrator 
Jackson has said she is committed to doing.
    There is another matter I need to raise. I have asked each 
of the nominees before us to commit to responding with equal 
vigor to the requests for information from either side of the 
aisle. I have been repeatedly assured this will be the case. In 
fact, back in April, Administrator Jackson herself issued a 
memo to all EPA staff directing them to provide Congress with 
the information we need to do our jobs. Yet in the months since 
this Administration took office, I have made several requests 
for information that have not received fair and equal 
treatment. When I do get replies to my questions, they have 
sometimes been vague and unresponsive. I know other colleagues 
on this committee have had the same experience. This lack of 
responsiveness is a real impediment to us in fulfilling our 
constitutional duties of oversight.
    Now to the nominees at hand. I've have had a chance to 
speak to each of these gentlemen. I have nothing against them 
personally, and I wish them success in their service to our 
Nation. I note, however, a trend I've pointed out before. Each 
of these senior level nominees either comes from or has spent 
the better part of his life out East.
    Mr. Perciasepe has had two tours of duty at EPA, both times 
at headquarters, and he has worked in or near Washington for 
his entire career. Mr. Hooks is also a veteran EPA headquarters 
staff member, although at least he got his education from 
schools in Florida and Texas.
    I have nothing against those who choose to work in one part 
of the country or another. But when virtually the entire 
leadership of a key Federal agency is from one area, in this 
case the Northeast, and the agency's mission is to address 
national issues, it raises concerns for those of us from other 
regions. The Nation's environmental challenges are not one-
size-fits-all. We suffer from policy decisions that do not take 
into account their effect on the rest of the country. I saw 
that time and again during my time as mayor of Tulsa, and I 
keep seeing it in the regulations coming out of Washington even 
now. It is said that personnel is policy, and if we fill senior 
positions with persons of one mindset, we will see policies 
that reflect that mindset.
    Madam Chairman, I look forward to hearing the testimony 
today and asking a few follow up questions. Thank you.

    Senator Cardin. Thank you very much, Senator Inhofe.
    Let me point out that, in regards to the specific concern 
that you expressed, the individual at the EPA is an economist, 
and it is our understanding that his findings were attached to 
the documents that are being transmitted.
    Senator Inhofe. Yes, well I have heard her response on 
that. However, that does not respond to all of the particular 
investigative questions that we had offered. In fact, at 
question and answer time, I will be a little bit more specific 
and ask the two of you to perhaps jointly join in on an 
investigation of some specific things that affect your area of 
expertise.
    Senator Cardin. Thank you, Senator Inhofe.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Let me first welcome our two nominees, 
Robert Perciasepe, nominated to be the Deputy Administrator of 
the Environmental Protection Agency, and Craig Hooks, nominated 
to be the Assistant Administrator, Administration and Resources 
Management, Environmental Protection Agency.
    I had asked Chairman Boxer if I could be permitted to 
introduce Bob Perciasepe. I do that because he hails from 
Baltimore. His first major public responsibility was working 
for the city of Baltimore under Mayor William Donald Schaefer, 
revitalizing the city's Inner Harbor into a world class 
destination. We very much appreciate his public service then 
and his career in helping at all levels of government.
    He knows about State issues. In State government, he served 
as a Cabinet Secretary for the State of Maryland, overseeing 
the State's environmental programs. He knows about regional 
cooperation. He served as Chair of the Chesapeake Bay Program's 
Principle Staff Committee where he coordinated efforts among 
the States of Maryland, Virginia and Pennsylvania, as well as 
the District of Columbia, to restore the Chesapeake Bay.
    And he knows about national issues. He already has served 
in two major leadership positions with the EPA, first as the 
Director of Water and later as the Director of the Air Program. 
He knows about working outside of government, too. For the last 
8 years, he has worked in a senior leadership position in one 
of America's oldest and most respected national natural 
resource advocacy groups, the National Audubon Society.
    Bob Perciasepe brings to this position a record of 
excellence in the areas of responsibility that would fall under 
this new responsibility once he is confirmed in the position in 
the Environmental Protection Agency.
    So, I thank President Obama for making this appointment, 
and I hope that we would quickly confirm his nomination.
    I also want to take this time to talk about the two 
nominees together. Management of our Federal agencies often 
gets insufficient attention. But we provide these Federal 
managers with large budgets, large staffs and broad ranging 
responsibility. The American people deserve strong stewardship 
of their tax dollars and management of these agencies.
    These two nominees are competent managers who give us 
confidence that the Environmental Protection Agency will be in 
good hands.
    We look forward to their testimony and we look forward to 
their prompt consideration by this committee and the U.S. 
Senate.
    And with that, I will turn it over first to Mr. Perciasepe. 
I would ask that you would first introduce members of your 
family that may be here so that we might have a chance to meet 
them. And the same thing with Mr. Hooks. And then we will be 
glad to hear from you.
    Mr. Perciasepe. Thank you, Mr. Chairman.
    Senator Cardin. Just a side conversation about Mayor 
Schaefer. Once you meet Mayor Schaefer, you always know Mayor 
Schaefer. He is still around.
    Senator Inhofe. And I have to say this. You do not look old 
enough to have worked with him because I was there in Tulsa 
when he was mayor of Baltimore.
    [Laughter.]
    Mr. Perciasepe. Well, it was a pleasurable time of my life, 
working for a can do kind of person. So, I appreciate those 
comments very much.
    Thank you, Mr. Chairman, for those introductions and for 
all of the work that both of you do on this Senate committee 
and the leadership that you show for the country.
    I want to, as you suggested, introduce my family who are 
here today. First, Lee Palmer, who is my wife, my youngest 
daughter, Julia, right behind me here, and my older daughter, 
Laura, who is right there. I am glad they were able to be here 
today. They may not know it, but they give me inspiration every 
day.
    The other thing I want to mention, by introduction. Shall I 
just go with my introduction?
    Senator Cardin. Yes. Well, Mr. Hooks, would you like to 
introduce your family. That way we will know who is looking at 
us here.
    Mr. Hooks. I would love to do that. Thank you. I have with 
me my father, Perry Hooks, Dorothea Hooks, his wife, my 
youngest daughter, Kyla, my wife, Austria, my best friend, 
Louis Castro, a wonderful family friend, Ramona Morano, my 
middle daughter, Brianna, my oldest daughter Zoraya, and my 
cousin Bridgette. I think that is it.
    Senator Inhofe. I would observe that with that crowd here 
it would be awfully hard not to be nice to you.
    [Laughter.]
    Senator Cardin. Well, we thank your families because we 
know the sacrifices they make for your service, for your public 
service, and we know that the challenges of the offices that 
you are seeking are going to be long hours. It is a sacrifice 
of not only yourselves but your families, and we appreciate 
that very much.
    Mr. Perciasepe. Thank you.
    Senator Cardin. We have now been joined by our Chairman.
    Senator Boxer [presiding]. Thank you.
    Thank you, Mr. Chairman, for chairing this. Feel free to 
continue to chair it or, if you need to go, I will take the 
gavel. But I am not going to give it to Senator Inhofe because 
I do not want him to get any ideas about the future here.
    [Laughter.]
    Senator Boxer. Even though I know he has a lot of good 
ideas about the future.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I would like to begin today's hearing by 
welcoming Mr. Perciasepe and Mr. Hooks. You each have been 
nominated to fill essential positions within the EPA at a 
pivotal point in the Agency's history. You each bring a wealth 
of experience and a record of dedication to achieving EPA's 
mission of protecting public health and the environment.
    The Deputy Administrator assists the EPA Administrator in 
implementing the President's policies. The Deputy Administrator 
also helps to provide leadership to EPA's programs and 
activities and keeps the Agency focused on safeguarding the air 
we breathe, the water we drink, and the land that sustains our 
Nation.
    Mr. Perciasepe, the Agency has a full agenda as it moves 
the country toward a clean energy future while also 
implementing and strengthening public health and environmental 
protections. Administrator Jackson, in my opinion, is doing an 
excellent job and, with more help, the EPA can accomplish even 
more for the American people. As her right hand, you will fill 
a critical role at the Agency.
    Mr. Hooks, your decades of experience working in different 
parts of the EPA are a great fit for the Office of 
Administration and Resource Management. That office helps to 
manage all of the other parts of the Agency, and it increases 
or shifts resources to where they are most needed.
    This office also works with State and local governments 
that rely on Federal resources to implement public health 
safeguards. And it plays a central role in working with other 
agencies to reduce pollution and increase the sustainability of 
their operations.
    Mr. Hooks, your background at EPA and your clear commitment 
to public service will ensure that you make a valuable 
contribution to the Agency's work.
    I look forward to hearing both of your testimony.
    At this time, did you speak already, Senator?
    Senator Inhofe. Yes, we did that already.
    Senator Cardin. We are ready for Mr. Perciasepe's opening 
comments.

     STATEMENT OF ROBERT PERCIASEPE, NOMINEE TO BE DEPUTY 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. OK, I will try to be actually brief because 
I think that you probably have all seen my statement.
    First, thanks again, Madam Chairwoman. I mentioned before, 
and I want to mention again while you are here, my appreciation 
to the full committee and yourself, in particular, for the 
leadership that you have been showing on the environment and 
public health in the United States. It is going to be a 
pleasure to be working with all of you if I am confirmed.
    I want to start by simply saying how humbled and honored I 
am that the President of the United States has nominated me to 
this position. And also, I want to express my thanks and 
appreciation to Administrator Jackson who has the confidence in 
me also to help on some of those minor details that the Chair 
was just talking about.
    Senator Cardin, you mentioned quite a bit of my public 
service background so I am not going to reiterate that too 
much, just to make a couple of key points. Public service is a 
very important thing to me. It is something that is a calling 
that I think many of us have. I think that, what I want to 
emphasize about those parts of my career that bring me to this 
point, is that diversity of experience and how I think that is 
going to be able to help EPA.
    This city experience you mentioned, part of my job, in 
addition to working on the Harbor and the Chesapeake Bay there, 
I also helped the city to manage its construction budget and 
the water and sewer systems. So, I had a lot of experience 
which much aligns with what EPA works on with local 
governments.
    At the State government, as you know, working with the 
Chesapeake Bay Program, some of the interstate issues with the 
States around, and also agriculture, quite a bit of time with 
agricultural interests on the DelMarVa peninsula and in other 
parts of the State.
    At EPA, with the air and the water programs, I think I 
bring some experience to EPA of having at least managed some of 
those larger programs. Certainly not all of them, but some of 
them.
    And finally, at the National Audubon Society, I have been 
the Chief Operating Officer for the last 5 years of service 
there. In that time, I have managed budget planning, annual 
performance planning, all of the other kinds of management 
issues that you really need to bring to bear to a well managed 
institution, including a Federal agency.
    I feel very confident that those experiences are really 
going to serve me well to help the President and Administrator 
Jackson with the tasks at hand.
    I want to just quickly say something about, well, I will 
just wait for the questions on the East Coast and the rest of 
the things. I have some thoughts on that.
    But I will just end right now by simply saying that we do 
have a set of core values that have been laid out by the 
Administrator, and I want to reiterate my support for those 
core values of strong science, transparency and the rule of law 
in terms of how EPA conducts its business.
    Also, I have to say, and Craig will be involved with these 
as well, that we are stewards of public funds, and we have a 
responsibility to make sure that they are used in a wise and 
effective way, and that is another thing that I am really going 
to pay attention to if you all confirm me to this job.
    We also need a strong and empowered work force. Our work 
force is, you know, 90 percent of what EPA's strength is are 
the people that work there. I want support them and make sure 
that they have the resources that they need to get their work 
done.
    So, if confirmed, I will put all of my skills, and all of 
my energy, into this task and working closely with 
Administrator Jackson to achieve these goals.
    Thank you.
    [The prepared statement of Mr. Perciasepe follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Cardin. Thank you.
    Mr. Hooks.

     STATEMENT OF CRAIG E. HOOKS, NOMINEE TO BE ASSISTANT 
 ADMINISTRATOR, ADMINISTRATION AND RESOURCES MANAGEMENT, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Hooks. Thank you.
    I would first like to take this opportunity to express my 
gratitude to Chairman Boxer and to Ranking Member Inhofe for 
holding this hearing.
    I am deeply honored to have been nominated by President 
Obama to serve as Assistant Administration for the Office of 
Administration and Resources Management, OARM, at EPA. It is a 
privilege to work with Administrator Jackson and, if confirmed, 
I look forward to becoming a member of her team, as well as 
working closely with this committee and Congress to continue to 
improvement management and performance at EPA.
    OARM's role within EPA is to provide national leadership, 
policy, and management of many essential support functions for 
the agency, including human resources management, acquisition 
activities, grants management, and management and protection of 
our facilities and other critical assets nationwide.
    In over two decades of experience in public service, I have 
held a variety of both programmatic and administrative 
positions in the Federal Government. After beginning my career 
at the National Oceanic and Atmospheric Administration, I 
joined EPA in 1988.
    Most recently, as EPA's Acting Assistance Administrator for 
OARM, I also serve as the agency's Senior Resource Official for 
the Recovery Act activities. In this role, I have focused my 
efforts on rewarding funds in a prompt, fair and reasonable 
manner, while also ensuring transparency and accountability in 
an effort to achieve both economic and environmental results. 
At this time, over 62 percent of EPA's Recovery Act funds have 
been awarded.
    Prior to my current position as Acting Assistant 
Administrator for OARM, I served as the Director of EPA's 
Office of Wetlands, Oceans, and Watersheds, or OWOW. OWOW 
promotes a watershed approach to manage, protect and restore 
water resources and aquatic ecosystems of the Nation's marine 
and fresh waters. I have also served as Director of the Federal 
Facilities Enforcement Office, which ensures that Federal 
agencies meet multi-billion dollar clean up commitments and 
comply with environmental law.
    As Associate Director of the Administration and Resources 
Management Support Staff within that office, I was also 
responsible for guiding annual resource requests, managing 
mission contracts, and supporting information technology, 
personnel and facilities activities.
    President Obama and Administrator Jackson have made clear 
the three core values they expect EPA to uphold: scientific 
integrity, the rule of law, and transparency in our actions. If 
confirmed, I am committed to keeping these values at the center 
of everything I do.
    I welcome the opportunity to focus on workplace issues 
emphasized by Administrator Jackson: labor management 
relations, work force planning, work force development, 
diversity, and work-life amenities. I believe that by creating 
an atmosphere of mutual trust and respect, we can work with our 
unions to identify and solve workplace issues.
    I would proactively focus on our future work force needs, 
as EPA faces the retirement of one-third of our employees over 
the next 10 years. I would continue the Agency's efforts to 
create a work force that is representative of America by 
providing opportunities to all employees. And, I would continue 
EPA's focus on work-life balance in order to maintain a 
motivated and engaged work force.
    As the next generation of environmental professionals 
enters the work force, we will continue to create a workplace 
that attracts the best talents and fosters their development 
and ensures that EPA continues to fulfill its mission in the 
future.
    In terms of facilities management, my priorities would be 
to ensure employee health and safety, as well as managing EPA's 
environmental footprint. To ensure that EPA's buildings and 
practices reflect our mission, the Agency implements a range of 
strategies to reduce the environmental impact of its facilities 
and operations, from building new, environmentally sustainable 
structures to improving the energy efficiency of our older 
buildings.
    If confirmed, I pledge to ensure that EPA's contracts and 
grants management processes are run according to the laws and 
regulations governing Federal procurement, to ensure that 
Federal funds are used responsibly to deliver meaningful 
environmental results.
    In conclusion, if confirmed, I pledge to uphold the laws by 
EPA is directed, to implement the priorities of the President 
and Administrator Jackson, to conduct agency business in a 
transparent manner, to be responsive to the inquiries of this 
committee and Congress, and to uphold the mission of the EPA.
    Once again, thank you for this opportunity. I am happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Hooks follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Senator Cardin. Well, let me thank both you for your 
testimonies. I am going to have to leave in a moment, but I 
just want to ask one question related to the interagency 
issues.
    Mr. Perciasepe, we had a chance to talk yesterday about the 
challenges of the different Federal agencies that you have to 
work with. I must tell you, I have been pleased this year to 
see EPA and DOD working together on clean up issues in my own 
State, both at Fort Meade and Fort Detrick, where we have made 
significant progress. But is it not easy working with other 
Federal agencies.
    So, I want to ask you a question about OMB, which does not 
always see eye to eye with EPA on budget requests. This 
committee is very interested in the State Revolving Fund and 
the Drinking Water Revolving Fund. We have legislation pending 
to try to increase the authorized amount.
    As Deputy Administrator, if confirmed, you will be 
responsible to try to deal with OMB in getting the appropriate 
funding levels so that we can move forward with our water 
infrastructure in this country. And these are programs that are 
critically important.
    I just want to know how you would see your role in working 
with OMB to make sure that we get the appropriate resources in 
this country to rebuild the infrastructure and the needs in our 
communities.
    Mr. Perciasepe. Thank you, Senator. In my past time at EPA, 
I spent quite a bit of my time working with the different 
agencies and, in particular, with the Office of Management and 
Budget. I have a great appreciation in the role that they play 
in managing the entire Federal Government. They certainly have 
their own set of challenges.
    I think it is, well, this may sound almost like diplomacy 
and I do not mean it to sound that way, but in recognizing 
where each agency is coming from in terms of its perspective 
and in terms of its charge that Congress has given to them in 
many cases, for instance, the Department of Agriculture or the 
Department of Transportation or the Department of Defense. It 
really is important that people at EPA in the responsible 
positions, you know, can communicate in a way of mutual respect 
and find the right way to proceed.
    And I think that I have quite a bit of experience and 
success in that area. I have a lot of respect for my colleagues 
that are in those other agencies. I have not had the 
opportunity yet, because I have not yet been confirmed, to 
really get to know them in detail. But I certainly will 
approach that interagency area of work with that kind of 
attitude, but also one that is aimed toward solving the 
problems and moving the ball forward.
    Senator Cardin. Well, the Congress, in a bipartisan manner, 
has added funds to these accounts over the President's budget 
because of the importance that we place on moving forward and 
modernizing our infrastructure. I give the examples frequently 
in Maryland where River Road became a river and downtown 
Baltimore was flooded out and the trains could not run. The 
funding of these programs is very important and I am pleased to 
hear that you will be fighting within the Administration so 
that perhaps we will have an easier lift in Congress in passing 
budgets that are adequate in this area.
    Madam Chair, thank you, I am going to turn it over to 
Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Well, first of all, I ask both of you the same question. If 
you are confirmed, which you will be confirmed, will you commit 
to answering requests for information and documents from the 
minority and respond the same as you would those requests 
coming from the majority?
    Mr. Perciasepe. Yes, Senator, I would.
    Mr. Hooks. Yes, sir.
    Senator Inhofe. OK, thank you.
    Mr. Perciasepe, first of all, I have always enjoyed working 
with you, as I said earlier, in the past, and I look forward to 
it again. You heard us taking about the alleged suppression of 
the information that went into the endangerment decision and 
the fact that the information was not used. We have requested 
an investigation of that.
    Let me just ask you, since you will be coming in to the 
second position. Will you make your own independent, go in with 
a fresh look and make it an investigation and share with us 
what your feelings are as to the accuracy of the accusations 
that have been made? Would you do that for me and get back in a 
timely fashion? It does not have to be formalized or anything.
    Mr. Perciasepe. You know, I am not familiar, other than 
what I read in the press about this.
    Senator Inhofe. And that is dangerous.
    Mr. Perciasepe. And I do know that the Administrator, I was 
watching the hearing yesterday on television, and I know that 
the Administrator responded, I thought, with some specificity. 
So, I would want to work with the Administrator on whatever 
reviews that they are doing and to make sure that information 
is available.
    Senator Inhofe. Well, if you would rather not do it 
independently, I can understand that, but would you go back, if 
we gave you some of the specifics we would like addressed, and 
try to help us with that?
    Mr. Perciasepe. Any information that you provide I will 
certainly make sure that it gets to the right people at EPA.
    Senator Inhofe. All right. You have been watching what we 
are doing now with this Clean Water Restoration Act. We are all 
familiar with this. We remember the background, where it 
started, we are familiar with the two court decisions and then, 
of course, what this would attempt to do would to be put all, 
in my opinion, my interpretation of the Act, would be to put 
all waters under Federal jurisdiction. How far do you think 
that should go? Are their exceptions to the Federal 
jurisdiction?
    All right, let me ask you more specifically. A farm pond 
that is unconnected to any other body of water, should that be 
Federal jurisdiction?
    Mr. Perciasepe. Well, it is hard to answer in the abstract 
of a particular pond or a particular water body. Let me just 
say, step back for just a moment on this. Based on my own past 
experiences, and what I have watched unfold over the last 
number of years with certain Supreme Court decisions, is that 
one of the things that is really clear to me is that there 
needs to be some work on this by the Congress to help create 
certainty in the current situation. Because for both people who 
might have a farm pond, and people who are worried about 
wetlands restoration and preservation, all of them have, you 
know, whatever perspective you are bringing to that issue, 
there is a degree of uncertainty right now.
    I think that the Administration did lay out some broad 
principles on this, and what I can say to you is that I would 
pledge to make sure that I would work with this committee in 
any way that you see your needs, so that we can find the kind 
of common sense approach that we need to take under those 
principles that the Administration had laid out.
    But it is hard to say----
    Senator Inhofe. Yes, but----
    Mr. Perciasepe. Can I just finish? It is hard to say, like 
a particular pond, you would have to know what the----
    Senator Inhofe. Well, what about water that collected in a 
ditch? You see, this is what I am really concerned about----
    Mr. Perciasepe. Yes, I understand----
    Senator Inhofe. That it would go so far and, quite frankly, 
if you feel, if you do not feel, that the Federal jurisdiction 
should come to these areas, that is a great concern. It is not 
going to affect your confirmation. But it is going to put me in 
a position where if I talk to the ag people and say that this 
Administration is not even going to say that you are exempt if 
you have water in ditch or in your farm pond that is 
unconnected, that is of concern to me.
    Mr. Perciasepe. Well, I do not think that anybody wants, I 
can say this categorically, but not being involved with the 
current discussions even on the legislation, but nobody wants 
some impractical jurisdictional determination that gets into 
rain puddles and things of this nature that you hear about.
    Senator Inhofe. OK. Let me do this a different way then. I 
am going to run down a list of six bodies of water. And all I 
am going to ask you do to do is say should the Federal 
Government have a jurisdiction over these. If you do not say 
yes or no, just say it depends or something. I just want to get 
you on record, so that if I have to go to someone and say, even 
water collecting in a ditch is one that might be subject to it, 
then that at least gives me something specific. These are my 
concerns.
    So, we have an intermittent stream that has no flowing 
water in past year.
    Mr. Perciasepe. I do not know the answer----
    Senator Inhofe. All right. And a farm pond, unconnected, as 
I mentioned before, to any other body of water.
    Mr. Perciasepe. A farm pond? Is this a farm pond that was 
made by the farmer or was this----
    Senator Inhofe. Yes. We do this in Oklahoma. You build a 
little dam and you build a farm pond, and that is where the 
cows go to keep cool.
    Mr. Perciasepe. I am going to probably, for all of these, 
just to give you a heads up, I'm probably going to say I do not 
know because, you know----
    Senator Inhofe. That is fine. I do not know will suffice.
    Water that collects in a ditch?
    Mr. Perciasepe. I do not know.
    Senator Inhofe. A wetland that is not connected to a stream 
or river?
    Mr. Perciasepe. Well, wetlands are connected hydrologic, by 
the full hydrologic cycle. But again, it takes a scientific 
discussion and knowledge of this particular water body to be 
able to answer that. But I am going to say that I do not know 
again.
    Senator Inhofe. A prairie pothole? And I do not know, is 
that OK? And a body of water that migratory birds happen to 
land upon?
    Mr. Perciasepe. A migratory bird now?
    [Laughter.]
    Senator Inhofe. There is a court decision on that, you 
might know.
    Mr. Perciasepe. I think the Supreme Court mentioned 
something about migratory birds and using them exclusively for, 
this I do know, and obviously there would have to be other 
factors involved.
    Senator Inhofe. Well, OK, I did not mean to take that much 
time.
    Mr. Perciasepe. Well, I am not saying----
    Senator Inhofe. I just really want to be able to say, to my 
people in Oklahoma, how far this thing really could go. You 
have been helpful. And you have been very honest in your 
response.
    This issue that you are aware of on the startup and shut 
down, a maintenance issue. As you know, since 1994, the EPA has 
given plants and refineries and manufacturers exemptions on 
their strict emissions standards on startup and shut down. The 
concern I have here is that, if these are discontinued, you 
would have a situation where people would either not even start 
up again, or, you know, well, is your feeling that there should 
be some exemptions on startup and shut down?
    Mr. Perciasepe. Well, startup and shut down of major 
facilities of any kind clearly are a moment in time where 
conditions are different than ongoing operations. I have to 
tell you that I am familiar with this concept, but I am no 
familiar with the current states of affairs with whatever 
rulemaking EPA is looking at.
    I can say that there are conditions at that particular 
moment that are unique, but I do not know the state of play of 
the regulation. I would be happy to look into that and get back 
to you.
    Senator Inhofe. That is fine. Do I have time to go ahead?
    Senator Boxer. You can do whatever you want.
    Senator Inhofe. Well, that is----
    [Laugher.]
    Senator Boxer. Within reason.
    Senator Inhofe. I noticed that you are on the One Thousand 
Friends of Maryland Board having to do with smart growth. This 
is an issue that, way back, many years ago, about the time that 
Schaefer was mayor and I was mayor of Tulsa, we dealt with a 
lot of the insiders coming in and trying to tell us how to 
handle our property rights in the city of Tulsa and these 
things, where we could grow and these things.
    Because of your previous association, just as a general 
question, do think that sometimes, sometimes, not always, but 
sometimes, that Washington knows more about, and should be 
involved in, land use in a Tulsa, Oklahoma, than people who 
live in Tulsa?
    Mr. Perciasepe. Well, the one thing I can say is, if the 
Department of Transportation funds a highway project in Tulsa, 
Oklahoma, they are going to be involved with land use, one way 
or the other because it is going to stimulate growth, or it is 
going to direct growth to a certain area. And I think there is 
a need for collaboration on these kinds of matters when Federal 
funds are used.
    Senator Inhofe. Absolutely. I understand that. In my 
experience, do you remember the name of Dr. Robert Froehlich 
out in San Diego? He was the one who was making the circuit at 
that one time talking about zoning. This had nothing to do with 
the highways and with Federal funding. I agree with you there, 
that is not a problem. But just on land use, and it gets a bit 
down to property rights, where he had used the circles around a 
city and said that certainly zoning could take place in some 
places and could not in other places.
    Is your feeling that even outside of the area where there 
are Federal funds that we should take a more aggressive stand 
in Washington in terms of zoning and land use throughout the 
country?
    Mr. Perciasepe. I really think that zoning, and specific 
kinds of land use decisions that you are talking about, are the 
purview of States and local government. It is the partnership 
between the Federal Government and the investments that we 
make, good or bad, that can disrupt those. So, we need to work 
on this together. The Federal Government has a role, to 
cooperate.
    Senator Inhofe. One last question to Mr. Hooks.
    Senator Boxer. Yes.
    Senator Inhofe. Mr. Hooks, you are probably aware, in fact 
I know that you are, that I have a kind of long standing 
interest in maintaining the integrity of the grant system at 
the Environmental Protection Agency. We have set up some 
restrictions, some guidelines. I think we are making great 
headway. It was not too long ago, though, that they moved the 
attorneys that were supposed to be making some of the 
interpretations to another building. This concerned me.
    I would like to know what your feelings are in terms of my 
past efforts and concerns about grants management and the kind 
of reforms, whether you agree to some of the reforms or not 
that I was trying to do and could continue with those reforms. 
I am very, very, I have always been very concerned about the 
way that grants are handled.
    Mr. Hooks. I am actually very pleased with some of the 
reforms that have taken place over the last few years. For a 
grants program, it is very important to further the agency's 
mission. I think one of the key factors in terms of some of the 
results that we have achieved over the last few years is that 
we have really advanced the ball in terms of achieving 
environmental results.
    However, it is going to be important for us to ensure that 
we monitor our policies and procedures, to offer improvements 
when necessary, and also maintain a high quality grants 
management work force to keep them in place.
    One of the things that I really want to focus on is 
leveraging technology to ensure that we can use that for 
decisionmaking and also increase transparency.
    In terms of the attorneys that were co-located in the same 
office, I believe those were attorneys that were associated 
with the contracts office and that is another issue that I 
actually want to look at.
    Senator Inhofe. Well, let me look into that because that 
may be true. That was not my understanding but you are probably 
right in this case. So we will look at that.
    But I am concerned, and pleased that you are concerned, 
with the integrity of the grants system and the improvements 
that we have made.
    Thank you very much.
    Senator Boxer. Thank you, Senator Inhofe.
    To both our nominees, we have a question that we have to 
ask all nominees, so I will just ask you to answer yes or no.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress, and provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities at the 
Environmental Protection Agency?
    Mr. Perciasepe, please, you go first. Answer yes or no.
    Mr. Perciasepe. Yes, I will.
    Mr. Hooks. Yes.
    Senator Boxer. And do you agree, we will do the same order, 
to ensure that testimony, briefings, documents, electronic and 
other forms of communication are provided to this committee and 
its staff, and other appropriate committees, in a timely 
fashion?
    Mr. Perciasepe. Yes, I do.
    Mr. Hooks. Yes. I do as well.
    Senator Boxer. And the last question of this. Do you know 
of any matters which you may or may not have disclosed that 
might place you in any conflict of interest if you are 
confirmed?
    Mr. Perciasepe. None other than I may have already 
disclosed in the information packet that I have given to the 
committee.
    Senator Boxer. All right.
    Mr. Hooks. No, I do not.
    Senator Boxer. All right.
    I just want to give, of course, a little bit of a different 
view on the clean water issues. I have no intention of putting 
a pothole under the Federal Government's jurisdiction. And I 
also agree with my colleague, coming from local government, I 
was a county supervisor, and I agree with you, Robert, that 
zoning and land use are a matter of the locals. But when we do 
inject Federal funds in there, there needs to be a partnership 
discussion and we need to respect each other and make that 
work. So, thank you for that answer.
    I would say, coming from a State that has lost 95 percent 
of its wetlands, that I do believe whether a wetland drains 
into a stream or a river, that is a different issue for me. 
Because I have seen areas that flooded over because everyone 
thought that the wetland was a swamp, everyone thought the 
wetlands were a ditch. And all through my early years in 
government, I took a great interest in restoring wetlands.
    I just want to make the point that wetlands, if they truly 
are wetlands, and that is why I think your answer is right, 
Robert, I mean it is so site specific. One person looks at 
something and says, that is a ditch. It is not worth anything, 
fill it up. Another person, perhaps a scientists, might say 
well wait a minute, do you know this is part of the ecological 
chain and the food chain and what is going on in here, do you 
know it is cleaning the air, and do you know it is providing 
the areas with flood control? All you have to do is look at New 
Orleans to see how desperate both our colleagues are to restore 
wetlands.
    So, I just want to make the point that we are, Senator 
Inhofe and I do have a disagreement over this, but we do also 
have some agreements on zoning and respecting the power of 
local government.
    I guess I would like to ask you both this question. Do you 
not view it this way, whether it is this contentious issue 
after Rapanos that we are trying to resolve which our 
colleagues on the other side feel that we overstepped, and I 
completely respect that, but we passed this out. I am not 
asking your opinion. But is it not true that, whatever the law 
is, it is your job, whether you agree with it or not, to 
implement it. Is that right? If it is the law? Go, go.
    Mr. Perciasepe. The Congress has had----
    Senator Boxer. And the President.
    Mr. Perciasepe. The executive branch obviously has the role 
of implementing those laws.
    Senator Boxer. Well, the President has to sign it for it to 
become a law or we have to override a veto. So, I think putting 
you on the spot, either of you, and we did not really see that 
happening to you, Mr. Hooks, I am sure you are grateful, is 
just not fair. Because it is up to us to write the laws. You 
know, if you are sitting up here and I am sitting there, then I 
have to say, well, regardless of my opinion, you write the 
laws. But you gave a truthful answer on what you think, and you 
have done that and I just appreciate it.
    There are contentious issues here. I think you are right on 
the point about certainty.
    I want to talk about the stimulus bill, otherwise known as 
the Economic Recovery Act, Mr. Hooks. You said that 62 percent 
of the awards have been made. Out of that, how many have really 
started the groundbreaking? Do you know?
    Mr. Hooks. Well, you can look at it in two different ways. 
You can look at it in terms of obligation rate, and I think we 
are doing a pretty terrific job in terms of getting the money 
out of the door. The majority of our money goes in the form of 
clean water and drinking water SRF loans.
    Senator Boxer. Right.
    Mr. Hooks. In terms of the outlays, it is actually fairly 
small. We are only about $22 million. I think, at this point in 
time, the States have had those contracts out for bid. Right 
now, all that is starting to come to fruition. At this point in 
time, I expect that the outlays should start to jump up.
    Senator Boxer. Good. I mean I have a serious concern out 
this, across the board. I think you are doing great getting 62 
percent. When do you think you will have 90 percent?
    Mr. Hooks. I suspect within the next 100 days, I would put 
us at 90 percent of the funds being obligated.
    Senator Boxer. OK. Well, I want to urge you, I do not want 
you to make mistakes on this. God knows, we do not want that. 
But I would urge you to do your best with your staff, because 
this recession is very prolonged, it started in 2007, it still 
is very tough out there, and we need to make sure that these 
grants are not only awarded, but the moneys are obligated. Do 
you stay in touch to make sure these are obligated? Is there a 
certain rule that they are going to lose the funds if they do 
not spend it by x time?
    Mr. Hooks. In the context of clean water and drinking 
water, yes, there is.
    Senator Boxer. Good.
    Mr. Hooks. There is a 1-year, actually, timeframe to have 
all drinking water and clean water SRF loans made within 1 year 
from enactment. So, by February 2010, all those contracts have 
to be under contract or construction.
    Senator Boxer. Well, I would urge the Administration to do 
whatever they can to stay on top of it and let people now they 
are under contract to get this done within a year because we 
need the jobs and we need the work done. And the SRF is a great 
program.
    As a matter of fact, if Senator Inhofe were here, he and I 
would be singing out of the same book. We very strongly support 
that fund and also, by the way, making sure that the formulas 
are fair. We are working hard on that. If we get that done, it 
will be the first time in 22 years that the SRF for clean water 
would be done and the other one was how many years? Thirteen 
years for the drinking water. So, we are really working hard.
    So, I guess I have a couple of other questions. Can you 
take a couple of more questions?
    Mr. Hooks. Absolutely.
    Mr. Perciasepe. We are here at your pleasure.
    Senator Boxer. Good. Oh, and I am having such a good time.
    Let me see. Mr. Perciasepe, earlier this year, 
Administrator Jackson ended EPA's voluntary performance track 
program, which was criticized for giving companies good PR 
despite poor environmental performance. The Administrator has 
asked an EPA Federal Advisory Committee to review the agency's 
voluntary program, and to recommend potential changes.
    If confirmed, do you commit to work to ensure that EPA's 
voluntary programs reward the best companies, those leaders who 
go beyond what is required and demonstrate what is possible?
    Mr. Perciasepe. Of course. I think voluntary programs have 
a role in the overall scheme, and we need to make sure that 
they accomplish some goals of improving compliance and getting 
people ahead of the curve, providing those proper incentives. 
So, yes, absolutely and I am looking forward to seeing that.
    Senator Boxer. The private sector can do so much and we 
ought to just save the rewards for those that really take that 
extra step.
    Also for you, the 2007 energy bill required EPA, in 
consultation with the Secretary of Education and Health, to 
develop voluntary school siting guidelines by June 30, 2009. I 
understand the Administration is working to catch up on this 
issue which, in my view, was not given enough attention in the 
past.
    If confirmed, do you agree to provide my staff with a 
status update and time line for EPA's issuance of these 
guidelines?
    Mr. Perciasepe. Yes, yes I will. I do not know the 
particulars right now, but I will look into it and get back to 
you.
    Senator Boxer. Yes, please do. If you could get us an 
answer in writing ASAP on that one. Just get back to us.
    And Mr. Hooks, EPA unions have called for the agency to do 
a workload and work force analysis which enables EPA to 
identify the skills needed to accomplish the agency goals and 
to address any gaps or surpluses in skills.
    If confirmed, do you commit to consider working with EPA's 
unions to determine the need to conduct such an analysis and 
complete it if such analysis is needed, in your opinion?
    Mr. Hooks. Yes, I will.
    Senator Boxer. Mr. Hooks, in January 2009, EPA's inspector 
general found that the agency could more quickly make 
unexpended funds available for use in other programs and 
activities in a process called de-obligating funds. The report 
made recommendations to help ensure that money was more quickly 
used where it was needed.
    If you are confirmed, would you please provide my staff 
with an update on the status of EPA's implementation of that 
report's recommendations?
    Mr. Hooks. Yes, I will.
    Senator Boxer. Good, because we, at this point when we have 
such a need for these funds to be used, we do not want them 
just wasting away or sitting there because somebody did not get 
their act together.
    Mr. Hooks, an April 2009 inspector general report found 
that the agency had not fully documented their implementation 
of five prior recommendations concerning grant disbursements. 
And I think that is a little bit to what my colleague is 
talking about.
    If confirmed, do you commit to report back to my staff on 
the status of EPA's implementations of these recommendations?
    Mr. Hooks. Yes, I will.
    Senator Boxer. Well, thank you very much, both of you. I am 
very grateful to you for undertaking these new 
responsibilities. I think it is an exciting time. It is a time 
of change. We have a big job to do. These are also very tough 
times. You are in a position, by doing your work well, by 
really focusing, to make things happen on the ground.
    A lot of people are hurting out there. It does not do us 
any good if stimulus funds are sitting somewhere, right, on the 
shelf. It does not do us any good if there are programs that 
have unobligated moneys, and we all think that it was a great 
grant and then it does not happen and it does not do us any 
good.
    And it does not do us any good when EPA does not conduct 
itself in accordance with science and the law, and I am very 
convinced that that will happen.
    So, congratulations to both of you. To your families, we 
really thank you. There will be long nights and hard work, but 
you will be part of this process of change by virtue of your 
standing behind your loved one. So thank you.
    We stand adjourned.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
